                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

 Case Number: 109070044                                                                     Page 1 of 1



         The OIG initiated an investigation based on a preliminary inquiry that found questionable
         expenses associated with a nonprofit research educational research institution'sl NSF award. 2

         The OIG requested clarification on expenses associated with participant support and travel. The
         institution provided documentation that resolved the questions about expenses. Accordingly, this
                 closed.
         case is -   -




                                                                                   \




NSF OIG Form 2 (11102)
